No. 19In The

Supreme Court of tlje fHmtetr States*
Javier

Sanche z , Gregor y Casor
and Micha el Marr ,

so

,

Petitioners,
v.
Uni ted States

of

America

,

Respondent.
On Petition for Writ of Certiorari
to the United States Court of
Appeals for the Ninth Circuit
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Jeffrey L. Fisher, a member of
the bar of this Court, certify on this 30th day of August, 2019, that the Petition for
Writ of Certiorari in the above-captioned case contains 5,140 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).

efifrey L. Fisher

